<html>
<title> - THE HISTORIC AMERICAN ALLIANCE WITH EUROPE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


               THE HISTORIC AMERICAN ALLIANCE WITH EUROPE

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON EUROPE, EURASIA, ENERGY, AND THE ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 26, 2019

                               __________

                           Serial No. 116-20

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 
                      or http://www.gpo.gov/fdsys/
                      
                      
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-613PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="92e2fdd2f1e7e1e6faf7fee2bcf1fdffbc">[email&#160;protected]</a>                               
                      
                      
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             

                    Jason Steinbaum, Staff Director
              Brendan Shields,  Republican Staff Director
                                
                                
                                ------                                

      Subcommittee on Europe, Eurasia, Energy, and The Environment

                WILLIAM KEATING, Massachusetts, Chairman

ABIGAIL SPANBERGER, Virginia         ADAM KINZINGER, Illinois, Ranking 
GREGORY MEEKS, New York                  Member
ALBIO SIRES, New Jersey		     JOE WILSON, South Carolina
THEODORE DEUTCH, Florida	     ANN WAGNER, Missouri
DAVID CICILLINE, Rhode Island	     JIM SENSENBRENNER, Wisconsin
JOAQUIN CASTRO, Texas		     FRANCIS ROONEY, Florida
DINA TITUS, Nevada		     BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania	     GREG PENCE, Indiana
DAVID TRONE, Maryland		     RON WRIGHT, Texas
JIM COSTA, California		     MIKE GUEST, Mississippi
VICENTE GONZALEZ, Texas		     TIM BURCHETT, Tennessee

                                  

                    Gabrielle Gould, Staff Director
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                   MATERIALS SUBMITTED FOR THE RECORD

Executive Summary presented from Representative Cicilline........     5

                               WITNESSES

Burns, Nicholas, Roy and Barbara Goodman Family Professor of the 
  Practice of Diplomacy and International Relations, John F. 
  Kennedy School of Government, Harvard University...............    16
Wormuth, Christine, Director, International Security and Defense 
  Policy Center, Rand Corporation;...............................    25
Brands, Hal, Henry A. Kissinger Distinguished Professor, School 
  of Advanced International Studies, Johns Hopkins University, 
  and Senior Fellow, Center for Strategic and Budgetary 
  Assessments....................................................    34
Conley, Heather, Senior Vice President, Europe, Eurasia, and the 
  Arctic, and Director, Europe Program, Center for Strategic and 
  International Studies..........................................    42

                                APPENDIX

Hearing Notice...................................................    65
Hearing Minutes..................................................    66
Hearing Attendance...............................................    67

 
               THE HISTORIC AMERICAN ALLIANCE WITH EUROPE

                        TUESDAY, MARCH 26, 2019

                          House of Representatives,
  Subcommittee on Europe, Eurasia, Energy, and the 
                                       Environment,
                      Committee on Foreign Affairs,
                                                     Washington, DC

    The subcommittee met, pursuant to notice, at 2:45 p.m., in 
Room 2172, Rayburn House Office Building, Hon. William Keating 
(chairman of the subcommittee) presiding.
    Mr. Keating [presiding]. The hearing will come to order.
    The committee is meeting today to hear testimony on an 
historic American alliance with Europe.
    Without objection, all the members will have 5 days to 
submit statements, questions, extraneous materials for the 
record, subject to the length limitation in the rules.
    Mr. Keating. I will now make a brief opening statement, and 
then, we will proceed to the hearing.
    I just want to thank the witnesses and apologize for the 
fact we have these nasty things called roll calls, and they 
occur from time to time. But I think the interruptions are 
over, I hope.
    I would like to welcome Ranking Member Kinzinger who is 
here with us, as well as Representative Cicilline, and we may 
be joined by other members as their interrupted schedules 
allow.
    A generation ago, the ties the United States had with 
European nations were valued. They were hard-earned. They were 
part of the American DNA, our history, our personal heritage.
    Like so many of us, my grandparents were Europeans who 
became Americans. In times of happiness, we celebrate. We renew 
this relationship with uniquely Americanized holidays like the 
recently observed St. Patrick's Day, something very special to 
me; Columbus Day; our own version of Bastille Day. In times 
that are more poignant, we observe shared sacrifices and loss, 
Memorial Day, Veterans Day, and personal loss. My own uncle was 
killed defending democracy on French soil.
    Perhaps it is the fact that this relationship was so 
ingrained that we saw no need to share this with following 
generations. However, in conversations I have had with our 
counterparts on both sides of the Atlantic, they reflect the 
need to remember and, more importantly, to renew this 
relationship.
    One cannot help but be profoundly moved visiting the 
monuments at Normandy to see, even to this day, homes in the 
area displaying both French and American flags. The alliances 
we forged with our European partners during and after World War 
II were a testament to the brutally hard-learned lessons that 
we cannot escape what is going on in the rest of the world. 
Instead, we learned that the best way to ensure our security at 
home is to promote peace and stability abroad.
    As a result, America committed to supporting a Europe that 
is whole, free, and at peace, and to working closely with our 
Western allies to define the rules and institutions that would 
hold nations accountable for respecting shared values and 
norms. Through these commitments, we would work to ensure that 
future generations would never witness the same terror and 
carnage of their forebearers.
    The United States invested heavily in economic terms such 
as through the Marshall Plan, but also in military and 
leadership terms, to make sure these institutions would hold. 
And to this day, we continue to benefit tremendously as a 
result.
    The Western alliance set the rules for the trade of goods 
and services, giving American businesses access to more 
predictable and profitable opportunities around the world. In 
fact, one-fifth of our trade today is with Europe.
    We also achieved a level of collective military strength 
that has since World War II, deterred another major attack on 
the U.S. by a foreign government. Even when we were attacked on 
9/11, our allies came to our defense and triggered NATO's 
Article 5. Since then, of the more than 3,500 men and women 
serving in coalition forces in Afghanistan, nearly one-third 
were not Americans.
    By coming together to forge institutions and rules grounded 
in our shared values of freedom, democracy, rule of law, and 
the entrepreneurial spirit, we have worked together to ensure 
that we could live in relative peace, security, and prosperity 
for nearly a century now.
    We are here today because we find ourselves again in 
uncertain times, facing grave threats to our security, and we 
cannot afford to forget why we committed to our alliance with 
Europe. Today, there are renewed threats from nuclear weapons, 
not only in Asia, from North Korea, but in Europe from Russia, 
and possibly, also, from Iran, if they, too, decide to pull out 
of the nuclear deal. The threat from terrorism is also not 
over.
    And while we can agree or disagree over the causes, climate 
is already affecting our military readiness, and there are 
estimates that effects from climate change could cost our 
economy 10 percent of GDP by the end of the century.
    Further, Putin has aggressively pursued hybrid warfare and 
tactics designed to undermine the very pillars of our security 
and our democracy and democratic alliances. And China has 
embarked on a strategy to reshape the global economy to its 
benefit at our expense.
    Automation and new technologies are also rapidly changing. 
They are changing our work force and our economy, and what it 
means to go to school and get a job, so the next generation is 
better off than their parents were.
    We can try to face all these threats and challenges alone. 
However, there has not been a single instance in U.S. history 
where we successfully did it alone. Rather, history teaches us 
that we are stronger when our allies are stronger and we are 
working in lockstep together against common threats and 
adversaries.
    Any actions or rhetoric, therefore, that weakens our allies 
and our alliances with them, is against our national security 
interest. We must continue to strengthen our capabilities and 
cement ever-closer ties with our European partners, and, in 
turn, embrace the same from each other and every one of them.
    The greatest difference-maker we have--and when I say 
``we,'' I mean both the United States and Europe--the greatest 
difference-maker we have versus China or Russia is that we have 
this historically unprecedented coalition, and they do not. Our 
European friends and partners, our NATO and non-NATO allies, 
the EU, and our joint multilateral institutions have been 
synonymous with the American prosperity and security, and that 
continues unchanged today.
    So, I would like to thank our witnesses for joining us for 
this important discussion during our very first hearing this 
year of this subcommittee.
    And I will turn now to the ranking member, Mr. Kinzinger, 
for his opening statement.
    Mr. Kinzinger. Thank you, Mr. Chairman.
    And thank you all for being here on the first hearing for 
this subcommittee. I could not think of a better topic to 
discuss. This is an issue that unites us all, and I think that 
is important to know.
    Since the end of the Second World War, America and European 
resolve has formed the cornerstone of national security policy 
for the post-war order. Through our partnership with European 
nations, we have successfully defeated communism, halted 
genocide in the Balkans, countered threats from terrorism, 
defended human rights around the world, and maintained cohesion 
with our like-minded democratic partners.
    While we no longer face the same existential threat posed 
by the Soviet Union, Western resolve and stability has helped 
to maintain peace in a world drowning with strawmen and in 
chaos. One of my growing concerns is our European allies 
continue to be reliant on oil and gas from Russian strawman 
Vladimir Putin who is using energy security to weaken our 
alliance.
    That is why I introduced, with Chairman Keating, H.R. 1616, 
the European Energy Security and Diversification Act, which 
last night passed the House with overwhelming bipartisan 
support. We know that the Russians are using energy as a weapon 
against our allies, and this bill reassures Europe and shows 
America's willingness to help our transatlantic partners in 
their energy growth.
    Sometimes it seems like our enthusiasm, however, that we 
have in the United States for NATO is not always matched in 
Europe. I think Europe needs to step up in many cases, whether 
it is on their military spending, whether it is on a lean-
forward attitude, or understanding, in fact, that they are on 
the front lines and, frankly, have the most to lose of any 
hostilities between Russia or any hostilities with terror or, 
frankly, the new cold war with China that is occurring even in 
Eastern Europe. Sometimes Europe comes across as tired. And I 
think if anybody needs to not be, it is Europe because they are 
on the front lines of this.
    There are other challenges that we still have to address. 
There is a genocide in Syria that, despite a brief cessation on 
hostilities, I think is going to continue to get worse. We have 
the issue with Huawei and China, and we have allies that 
sometimes go to the lowest bidder, but put themselves in great 
harm and great possibility of harm by buying Chinese 
technology. And we have a new cold war with China, as I 
mentioned.
    And I think in many cases in the United States we have 
politicized what we spend on the military and made it a 
partisan issue, when, in fact, our underinvestment in the 
military is the reason that we now have parity, which we should 
never have. We have parity with some of our near-peer 
competitors like China and Russia.
    So, all these are very important. These are a lot of issues 
that unite us. But I look forward to asking the questions of 
our panel today.
    With that, I will give back 2 minutes and 20 seconds.
    Mr. Keating. Well, I would like to thank the ranking 
member. That is quite generous and unusual in Congress to give 
back that time. And I have just cut into half of it by thanking 
him.
    [Laughter.]
    Our other members have the opportunity, if they so desire, 
to give a 1-minute opening statement as well. And I would like 
to go to Representative Cicilline from Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. And I would like to 
thank you and Ranking Member Kinzinger for calling this 
hearing, so that we can have an opportunity to discuss one of 
the most important relationships in the world, the 
transatlantic alliance.
    I would also like to thank our witnesses for being here and 
for their extraordinary public service.
    The partnership between Europe and the United States is an 
enduring alliance. It is a community based on a shared set of 
democratic values. It is a partnership that has fostered 
unprecedented peace and prosperity in Europe and the United 
States since the end of World War II. It is an alliance to 
celebrate and one we must continue to adapt for the future.
    As we gather today, we must be clear-eyed about the 
challenges to the transatlantic alliance and we must be 
proactive on what Congress can do to shore up this critical 
bulwark. In Europe itself, the strength of the alliance is 
being tested by Brexit, the rise of populism in Europe, 
alarming antisemitism, and concerning democratic backsliding in 
places like Hungary and Poland. Here at home, our own President 
poses one of the greatest challenges to transatlantic 
relationships.
    And I want to commend Ambassador Burns and Ambassador Doug 
Lute for your excellent report on ``NATO at 70''. I ask 
unanimous consent that that be made part of the record.
    Mr. Keating. Without objection.
    Mr. Cicilline. Thank you.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Cicilline. It is a thoughtful analysis of the current 
state of the alliance and roadmap for its future. The report 
warns, and I quote, ``President Donald Trump is regarded widely 
in NATO capitals as the alliance's most urgent and often most 
difficult problem.'' End quote.
    This is an extraordinary statement. NATO, an alliance 
founded by the United States and our closest allies in great 
part to defend the United States, now sees the President of the 
United States as a threat. Incredible.
    Today, I want to send a clear message to our European 
allies. The United States is committed to our partnerships with 
Europe, and Congress will continue to support the transatlantic 
alliance, as we stand together to face new threats to 
democracy, peace, and global stability.
    And I thank you, Mr. Chairman, and I yield back.
    Mr. Keating. Thank you, Representative.
    Now no one else wants to have any opening statement. So, I 
would like to introduce our witnesses and thank them for their 
presence here today.
    Ambassador Nicholas Burns is the Roy and Barbara Goodman 
Family Professor of the Practice of Diplomacy and International 
Relations at the Harvard Kennedy School of Government. During 
his distinguished career as a member of the Foreign Service, 
Ambassador Burns served as Undersecretary for Political Affairs 
at the Department of State, as well as U.S. Ambassador to NATO. 
Not unimportantly, he resides in Massachusetts and spends a 
great deal of time in the wonderful community of Westport.
    Ms. Christine Wormuth is the Director of the RAND 
International Security and Defense Policy Center. She 
previously served as Undersecretary of Defense for Policy at 
the Department of Defense, and prior to that, as Deputy 
Undersecretary of Defense for Strategy, Plans, and Forces; 
Special Assistant to the President; Senior Director for Defense 
at the National Security Council, and Principal Deputy 
Assistant Secretary for Homeland Defense.
    Dr. Hal Brands is the Henry A. Kissinger Distinguished 
Professor of Global Affairs at the Johns Hopkins School for 
Advanced International Studies, and a Senior Fellow at the 
Center for Strategic and Budgetary Assessments. He previously 
served as Special Assistant to the Secretary of Defense for 
Strategic Planning, and as a leader writer for the Commission 
on the National Defense Strategy for the United States.
    Finally, Ms. Heather Conley is a Senior Vice President for 
Europe, Eurasia, and the Arctic, and Director of the Europe 
Program at the Center for Strategic and International Studies. 
Previously, Ms. Conley served as Deputy Assistant Secretary at 
the Department of State's Bureau of European and Eurasian 
Affairs.
    We appreciate all of you for being here today and look 
forward to the testimony.
    Please limit, although we are not going to hold a clock 
over your head, testimony to the vicinity of 5 minutes.
    And without objection, any of your written statements will 
be made part of the record.
    I will start with Ambassador Burns for his statement.

  STATEMENT OF NICHOLAS BURNS, ROY AND BARBARA GOODMAN FAMILY 
   PROFESSOR OF THE PRACTICE OF DIPLOMACY AND INTERNATIONAL 
   RELATIONS, JOHN F. KENNEDY SCHOOL OF GOVERNMENT, HARVARD 
                           UNIVERSITY

    Mr. Burns. Mr. Chairman, Ranking Member Kinzinger, thank 
you very much for the pleasure of being here. And, Mr. 
Chairman, as you said, I am happy to be here as one of your 
constituents from Westport, Massachusetts.
    I have submitted my testimony for the record. I just have 
three points in this short presentation.
    First, thank you for doing this. Thank you for focusing on 
what does unite us, as the ranking member said. We believe in 
NATO and we believe in the European Union. And if you think 
about it, they are the cornerstones of the democratic West. 
They have become that, the U.S. relationship with the European 
Union on economics and on political affairs, and on climate 
change, and our NATO alliance.
    NATO prevailed in the cold war. And when communism 
collapsed, in the words of President George H.W. Bush, who was 
a great transatlanticist, we found a Europe ``whole, free and 
at peace''. And that was a tremendous accomplishment for the 
United States. And the U.S. and the EU and Canada, 
correspondingly, created unparalleled prosperity on both sides 
of the Atlantic Ocean.
    We learned a lot of lessons over the last 70 years. NATO's 
anniversary, of course, is next Thursday. April 4th of next 
week will be the 70th anniversary of the creation of the 
alliance. We learned that engagement with the world, and our 
leadership in it, strengthens the United States.
    And the major insight that the founders had, Truman and 
Eisenhower, Acheson and Dulles, Republicans and Democrats, was 
that, to defend the United States at home, we have to be 
deployed overseas. We have to be in Europe in alliance with the 
Europeans, and that is how we have kept the peace and great 
power relationships since the Second World War. That is my 
first point.
    My second point is that, much I think to everyone's regret, 
certainly mine, much of what we have achieved may be at risk, 
as President Trump has belittled and, in my view, weakened 
NATO, and he has branded the European Union as a foe of the 
United States, the first President to do that.
    Congressman Cicilline mentioned the report that Ambassador 
Doug Lute and I have just authored on ``NATO at 70,'' which we 
term ``an alliance in crisis''. We say there that NATO's 
largest problem is that, for the first time in its history, it 
lacks a strong, principled voice in the White House, in the 
American Presidency. We have always had Presidents, Republican 
and Democratic, who believe in NATO. And right now, we have a 
President who has failed to commit clearly and unequivocally 
that he will back up an Article 5 scenario on attack, a threat 
of attack, against one of our allies.
    He has also failed to lead the alliance in responding to 
President Putin's interference in the American election in 2016 
and the Dutch, French, and German elections of 2017. And I 
think most importantly, he has become a constant critique of 
the small ``d'' democratic leaders, Angela Merkel, Emmanuel 
Macron, Theresa May in Europe, while he has embraced some of 
the anti-democratic populist leaders like Viktor Orban in 
Hungary.
    We hope, I certainly hope, that Congress can right the 
balance. You did at the Munich Security Conference on a 
bipartisan basis, and there are bills in Congress that would 
reaffirm our Article 5 commitment, which I certainly believe 
Congress should act upon.
    Third and finally, this is not just yesterday's story. 
There was an op-ed in The Wall Street Journal this morning 
essentially saying NATO was a great story, but it is 
yesterday's story. This is about our future, because we cannot 
preserve a democratic, united, peaceful Europe without NATO in 
it. We are not going to have partners to fight in the anti-ISIS 
coalition, which has been very successful under both President 
Trump and President Obama's leadership, without Europe. They 
are fighting with us in the Horn of Africa. They are fighting 
with us, as you know, in West Africa. They are important to us 
on climate change as a potential partner as we re-enter--I hope 
we will--the climate change agreements in the future. They are 
important to us on Iran.
    And finally, I would say, we are going to fight two big 
battles with the authoritarian powers in the years ahead. One 
is the battle of ideas. The Russians and Chinese believe that 
their big idea, central planning, one political party, denial 
of the human and civil rights of a population, that that is the 
way forward, and they are saying that. That is Xi Jinping and 
Putin's message. We need to defend our Western catalyst, rule-
of-law societies. The United States and Europe have to be in 
that together. That is a first big battle.
    The second is the battle for technological predominance in 
our military with the Chinese. And that maybe is the most 
important for our future, that we retain technological military 
superiority. It is at risk. We need Europe and our East Asian 
allies to compete with the Chinese. So, we are tomorrow's 
alliance, not just yesterday's alliance.
    Thank you very much.
    [The prepared statement of Mr. Burns follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Ms. Wormuth.

    STATEMENT OF CHRISTINE WORMUTH, DIRECTOR, INTERNATIONAL 
      SECURITY AND DEFENSE POLICY CENTER, RAND CORPORATION

    Ms. Wormuth. Chairman Keating, Ranking Member Kinzinger, 
members of the committee, thank you for this hearing and for 
the opportunity to be here.
    Our cooperation with the countries of Europe is based on 
our shared values. This is picking up on something Ambassador 
Burns just said, our shared belief in democracy, in individual 
liberty, and the rule of law. And we have shared a common 
purpose with Europe to protect and advance these values. And I 
saw that time and time again in my government career, how 
important it is to work with our European allies and partners.
    I wanted to just give a few examples this afternoon of some 
of the benefits of the transatlantic relationship, looking at 
three different periods: the post-cold war period, the moments 
after the 9/11 attack, and then, the era we are in now, and 
will be in, an era of strategic competition.
    Four decades of close cooperation with the Europeans during 
the cold war ended with the fall of the Berlin Wall in 1989 and 
the collapse of the Soviet Union just 2 years later. We 
immediately began working with Western Europe on Germany's 
reunification within NATO and the larger goal of building a 
Europe whole and free. We and our European allies focused on 
engaging the former Warsaw Pact countries as well as the former 
Soviet Republics, working to help them transition and 
stabilize.
    Through programs like NATO's Partnership for Peace, the 
SEED Act, and others, NATO nations helped these countries 
emerge from communism. Many of them eventually joined NATO, and 
many others also joined the European Union. And the work that 
we did during that period made both sides of the transatlantic 
relationship safer and more prosperous.
    After al-Qaeda attacked us on September 11th, 2001, Europe 
again showed their solidarity. NATO invoked the Article 5 
collective defense pledge for the first and only time in its 
history. European nations fought with us in Afghanistan from 
the earliest days, losing more than a thousand military 
personnel on the battlefield. Under the NATO umbrella, many of 
the European countries are still with us in Afghanistan today. 
Some of our European allies also joined us in Iraq, fighting 
alongside our military, training Iraqi security forces, and 
working to rebuild Iraqi institutions.
    And then, in the summer of 2014, when the Islamic State 
seized territory in Iraq, many Europeans joined us in the anti-
Isis coalition. Some joined the air campaign or contributed 
special operations forces. Others provided trainers on the 
ground, and still others gave weapons to the Kurdish peshmerga, 
and the Iraqi security forces. Many Europeans also provided 
much-needed reconstruction funding. Ending the physical 
caliphate, which just happened in the last few days, in Iraq 
and Syria would have taken much longer and cost much more 
without the support from our European allies and partners.
    Our close relationship with Europe has given us basing and 
access rights that would help us not only defend Europe, if we 
had to, but also help us defend our own interests far from our 
shores. The network of American bases we have in the UK, 
Germany, Italy, Spain, Greece, and Turkey are strategic assets 
that help us respond more quickly, whether it is to conduct 
non-combatant evacuations, provide humanitarian assistance, or 
respond more quickly to crises.
    It is also important to note we have cooperated with Europe 
on a range of non-military challenges. In 2013, several 
European nations helped with the destruction of Syrian chemical 
weapons. During the 2014 Ebola crisis in West Africa, the UK 
and France sent military personnel, and the EU contributed 
substantial financial resources to the countries fighting the 
disease.
    As Ambassador Burns says, the Europeans also worked with us 
to negotiate the nuclear agreement with Iran and the Paris 
Climate Agreement. And although the United States has withdrawn 
from both of those agreements, the Europeans have stayed in 
both.
    Now, as we look to this new period of competition, Europe 
continues to help us pursue our strategic goals. They have been 
our closest partners in pushing back against Russian violations 
of sovereignty. For the past 5 years, together we have 
maintained sanctions against Russia because of its aggression 
in Ukraine. And standing together, the United States and 24 
European nations expelled 115 Russian diplomats in response to 
the brazen chemical weapons attack on the Skripals.
    President Putin seems intent on undermining the rules-based 
order that the United States and Europe worked so hard to build 
all these many years. Preventing that outcome is going to 
require us to work closely with Europe and NATO. We have taken 
a number of measures already to shore up deterrence, including 
forward deployment of multinational battle groups in Poland and 
each of the Baltic States.
    Motivated substantially by the need to deter Russia, many 
NATO members are increasing their defense spending. A majority 
of them will be on target to meet the 2 percent goal by 2024. 
And although several European countries absolutely need to 
spend more on defense, the increasingly fraught debate over 
burden-sharing runs the risk of overshadowing the many benefits 
of the transatlantic relationship.
    I would just close by saying, looking ahead, the rise of 
China will likely be the most important geopolitical challenge 
for the foreseeable future. Our principal advantage in that 
competition, as the chairman has said, are our alliances with 
Asia and Europe, and it is one we cannot afford to jettison. 
So, just as we have worked together on security in Europe, we 
need to work closely with Europe today to form common 
political, economic, and security approaches to China.
    Thank you.
    [The prepared statement of Ms. Wormuth follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Keating. Thank you, Ms. Wormuth.
    Dr. Brands.

   STATEMENT OF HAL BRANDS, HENRY A. KISSINGER DISTINGUISHED 
  PROFESSOR, SCHOOL OF ADVANCED INTERNATIONAL STUDIES, JOHNS 
HOPKINS UNIVERSITY, AND SENIOR FELLOW, CENTER FOR STRATEGIC AND 
                     BUDGETARY ASSESSMENTS

    Mr. Brands. Mr. Chairman, Ranking Member Kinzinger, 
distinguished members, thank you for having me. I will jump 
right in, in the interest of brevity.
    The modern transatlantic relationship anchored by NATO 
emerged after World War II during the early cold war, and the 
creation of NATO, in particular, marked a historic departure in 
U.S. policy that was rooted in a threefold logic. It reflected 
a realization that America had a profound interest in shaping a 
favorable balance of power in Europe, and that persistent U.S. 
diplomatic and military engagement was the only way of doing 
so. It reflected the idea that only a U.S. security guarantee 
could provide the reassurance necessary to generate economic 
recovery and prosperity and protect democratic institutions in 
Europe. And finally, the U.S. commitment was meant to suppress 
historical rivalries between Germany and its neighbors, and 
thereby, facilitate European economic and political 
integration.
    Over the subsequent decades, the U.S. role within NATO and 
the alliance itself have evolved considerably, but for 
generations that relationship has produced a range of critical 
benefits, not just abstract global benefits, but concrete 
benefits for the United States.
    First, NATO has significantly increased America's military 
punching power. During the cold war, European forces were vital 
to maintaining something like a balance of power vis-a-vis the 
Warsaw Pact. Since the cold war, NATO countries have made 
significant contributions to every major U.S. military 
intervention. America almost never goes to war alone, and a key 
reason for that is that it can draw on the support of European 
allies. For decades, the U.S. relationship with NATO has also 
provided access to bases, logistical facilities, and strategic 
real eState that make it far easier to project American power.
    Second, the relationship with NATO provides geostrategic 
influence and global stability. NATO binds some of the richest 
countries in the world to the United States. It, thereby, helps 
us maintain a significant overbalance of power vis-a-vis any 
competitor. NATO has deterred aggressive States that might be 
attempting to destabilize Europe or the broader national 
system. It has tamped down European instability by making it 
virtually unthinkable that war could occur between NATO 
members. NATO also acts as an impediment to nuclear 
proliferation by convincing historically insecure countries, 
such as Germany and Poland, that they do not need the world's 
absolute weapon.
    Third, NATO enhances U.S. diplomatic leverage. Put bluntly, 
Europeans have to listen to us on European and global issues 
because the United States plays the leading role in NATO, and 
that makes it the central player in European defense. The 
United States has also used NATO and its institutional 
structures as vehicles for deep cooperation on 
counterterrorism, counterproliferation, counter-piracy, and 
other challenges.
    Fourth, the relationship with NATO provides economic 
benefits. For decades, U.S. diplomats and trade negotiators 
have used the security leverage provided by its NATO 
commitments to extract more favorable terms in bilateral 
economic agreements. More broadly, NATO and other U.S. 
alliances sustain a climate of stability in which trade and 
free enterprise can flourish, thereby bolstering U.S. and 
global prosperity.
    Finally, the relationship with NATO provides political 
legitimacy. Formal alliances like NATO provide greater 
international legitimacy for the use of force, especially in 
cases such as the Kosovo conflict when we cannot secure a U.N. 
Security Council resolution. Allied support also enhances the 
perceived legitimacy of military action at home.
    For all these reasons, maintaining a strong transatlantic 
relationship is critical to U.S. interests. There are, of 
course, challenges that are currently testing the U.S.-NATO 
relationship, just as there have always been such challenges. I 
discuss those challenges at greater length in my written 
statement, but just a short list would include: building a 
stronger and more credible deterrent against Russian aggression 
in Eastern Europe; ensuring that key allies such as Germany are 
making necessary military investments; adapting the alliance to 
confront unconventional threats like political warfare and 
economic coercion; reconciling NATO's collective defense 
mission with its out-of-area responsibilities; confronting 
growing political illiberalism within parts of the alliance, 
and, most importantly, reversing the erosion of U.S. 
credibility within the alliance as a result of statements 
questioning America's Article 5 commitment.
    The seriousness of these challenges should not be 
understated, but I believe that the transatlantic relationship 
can overcome them, just as it has overcome even greater 
challenges before, so long as the United States continues to 
provide the leadership that has proved so important for the 
past seven decades. And if anything, I think the relevance of 
NATO to American strategy is increasing today, not simply 
because of the Russian threat, but because it is hard to 
imagine any effective strategy for dealing with an autocratic, 
assertive China that does not include deep cooperation between 
America and its closest democratic allies in Europe.
    Thank you.
    [The prepared statement of Mr. Brands follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Keating. Ms. Conley.

  STATEMENT OF HEATHER CONLEY, SENIOR VICE PRESIDENT, EUROPE, 
 EURASIA, AND THE ARCTIC, AND DIRECTOR, EUROPE PROGRAM, CENTER 
            FOR STRATEGIC AND INTERNATIONAL STUDIES

    Ms. Conley. Thank you, Chairman Keating and Ranking Member 
Kinzinger, members of this committee. What a privilege it is to 
be your kickoff hearing. Thank you so much.
    And let me just say thank you for the kind invitation to 
NATO's Secretary General, Jens Stoltenberg, to speak at a Joint 
Session of Congress next week. That sends such an important 
message. So, thank you for that leadership.
    Seventy years ago, the United States knew who we were, what 
we stood for, and what we needed to do to safeguard freedom. We 
were the good guys. We stood for freedom. We were those can-do 
Americans, said with equal parts envy and exacerbation by our 
allies. America's Greatest Generation, having fought twice in 
Europe in the span of 28 years, understood the extraordinarily 
high cost of freedom and the scourge of nationalism and hatred. 
To honor that American sacrifice from two world wars, that 
generation of leaders knew that European stability was 
essential to ensure America's security, exactly as you said, 
Chairman Keating, and it understood that strong alliances win 
wars against aggressors then and now.
    As I was preparing for this oral statement, I looked under 
my computer keyboard, and I keep a copy of Senator John 
McCain's farewell message to the Munich Security Conference 
last year, which Mrs. McCain read, and it inspired me. And I 
just want to offer this quote to you from Senator McCain: 
``Together with our allies, we kept faith with those on the 
other side of the walls that divided the oppressed from the 
free. We were confident that they wanted the same things we 
did--freedom, equal justice, the rule of law, a fair chance to 
prosper by their own industry and talents. This is our greatest 
inheritance, and it did not happen by accident.''
    Today I would argue we are having a tough time answering 
the question of who we are and what we stand for. We are tired 
of spending funds overseas that are so urgently needed at home. 
We are frustrated and burdened by the yoke of leadership. We 
want others to shoulder that burden, and sometimes we appear as 
victims that other countries are taking advantage of.
    Congressman Kinzinger, you noted how weak our allies are 
acting right now. They are very divided. They are having a hard 
time resisting China's economic strength, I would argue 
Russia's malign influence. We cannot take America's greatest 
foreign and security policy success, Europe, for granted. We 
need to engage them. We need to work with them. We need to push 
them very hard, but that requires deep American diplomatic, 
economic, and security engagement.
    But I leave you with this final thought: this discussion is 
really not about our allies. It is about who we are and what we 
stand for in the future. This anniversary gives us an 
opportunity to put forward the hard-fought wisdom, values, 
principles, and knowledge of previous American generations, but 
we must bring it forward to a new generation. I have to 
convince my young daughters why NATO is as important to them as 
it is to me. As representatives of the American people, you 
must do this. As former officials that are sitting on this 
witness table, we must do our part as well. This is our 
greatest inheritance and we must fight every day to preserve it 
and strengthen it.
    Thank you.
    [The prepared statement of Ms. Conley follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Keating. Thank you, Ms. Conley, and thank all the 
witnesses. In a very short period of time, I think you 
capsulized what this hearing is about.
    And I, too, had the privilege of going to the Munich 
Security Conference as part of the CODEL led by Senator McCain. 
What an experience that is, trust me, in every respect. But his 
patriotism, his love of this country, his understanding of the 
role of our country, and an understanding of the alliance that 
we are talking about, was as deep as any person I had ever met 
in my life, and he will be missed. One of the best legacies we 
can all serve to honor him is to do our best at this difficult 
time to move forward.
    Because, in my opinion, this is not just a hearing. This is 
really the beginning of a central mission of this committee 
during this Congress. Each of us is here and have been elected 
at different times in our country's history, but I honestly 
believe that what we do as a Congress during this 2-year 
period, in particular, will have fundamental impact on our 
relations with our most important allies and create a bond of 
greater security and prosperity in our country in an area where 
we have never had such an ability to do so.
    I came back--and I saw Ambassador Burns there--from Munich 
with the Speaker and several other of our leaders just a little 
over 3 weeks ago. We had the opportunity to go to Brussels 
after that, and in the whole course of that, met with most of 
the key European officials.
    Really what I want to get to is this: I was really taken 
aback by the depth of the challenge we have in front of us as a 
Congress. There was a poll in Germany that came out just about 
the time that we got there, and it showed that the German 
people had 85 percent unfavorability toward the United States 
and only 10 percent favorability. The German people, those are 
among our closest allies, people that, as our witnesses 
detailed, have fought with us and lost lives. So, these are the 
critical issues we have in front of us.
    And also, we met with those leaders. And I will share with 
you without identifying them, because there are Chatham Rules 
that took place in these private meetings. But during those 
recent meetings, during those meetings that we had, the leaders 
were using words like ``painful,'' ``hurtful,'' describing our 
actions at that time. They centered, for instance, on the U.S. 
rationale for the tariffs that are imposed on Europe right now, 
and they wanted us to explain why we were using emergency 
security powers to impose those tariffs. They said, ``When did 
we become your enemies? When did we become a security risk to 
your country?'', our closest allies.
    So, if you could, that is why I led with this question. We 
have work to do with the people in Europe, and that is why we 
are here today. That is why this is central to what we will do, 
reminding them of the importance of this alliance. Because I 
think when people focus back on what we took for granted a 
generation ago, they will understand better how to invest 
personally, financially, and in terms of our security interests 
together.
    So, if I could, those two comments: what can we do to help 
improve as a Congress? And I must tell you, I am not casting 
our meeting just on those issues. I have been to many CODELs 
traveling as Members of Congress. I cannot recall a time that I 
felt as appreciated with us being there as Members of Congress 
as we did during that period. And that is encouraging. But what 
can we do? Because the people that will be making decisions--
and there are elections coming this spring--will be guided by 
their own constituencies. And it is concerning to see that 
unfavorability that is there with a close ally, and also the 
work we have to do with these other officials, our counterparts 
in Europe.
    Mr. Burns? Ambassador Burns?
    Mr. Burns. Thank you, Mr. Chairman.
    I would also say this: politics is a two-way street. 
Relations across the Atlantic are a two-way street. I think 
there are things that we need to do and they need to do.
    On our side, it was pretty clear from the Munich 
Conference--it was an extraordinarily insightful conference to 
hear from the Europeans--they are looking for a reaffirmation 
of the American commitment to NATO, especially focused on 
Article 5, because the President just has not done that. He has 
had his first visit in 2017. He did not mention Article 5. In 
fact, it was taken out of his speech. And then, last summer, on 
the day of the summit with President Putin in Helsinki, he was 
highly ambivalent about whether he would respond to an attack 
on Montenegro, a country that was attacked politically, an 
attempted coup by the Russians 2 years ago.
    And the second thing that we need to do is reaffirm our 
relationship with the European Union. Every President since the 
Coal and Steel Community was created in 1948 has believed that 
the European Union is a partner of the United States. It is in 
our interest to see them succeed. The President consistently 
has called them a foe, a competitor, only looking at them 
through a prism of trade, but not also in our political 
partnership, which is very deep.
    I think on their side of the ledger--and here, the ranking 
member I thought made a very productive statement--we have to 
push the Europeans as well, as we always have. They are 
excessively reliant on Russian natural gas. They are endanger 
of being excessively reliant on Chinese capital investment 
through the Belt and Road Initiative. You saw that Italy joined 
it formally over the weekend. They are insufficiently 
distrustful of Huawei on the 5G issue.
    And so, I do think we have a right and an obligation in a 
two-way street relationship to push back. And the one that I 
feel most strongly about is German defense spending. It is the 
largest and most successful economy. They have a surplus. And 
yet, the Bundestag reported out last week a budget that will 
not get them to 2 percent by 2024, which is the target. They 
may barely get to 1.5 percent. President Trump is right to push 
them. President Obama was right to push them. The only silver 
lining there--I will finish on this--is that we have seen four 
consecutive years of real growth in European defense spending 
since Putin's annexation of Crimea, mainly not in Germany, but 
in the other allies, and that is something we can push forward 
on with them.
    Mr. Keating. My time is up, but I think that you will have 
the opportunity, the other witnesses, to address some of those 
issues with some of the other questioning.
    So, I yield to the ranking member, Mr. Kinzinger.
    Mr. Kinzinger. Mr. Chairman, I am going to swap places with 
Ms. Wagner.
    And I will say, from my side, if you could, let's be very 
disciplined on the 5-minute clock because of the hour.
    But I will switch places with her, Mr. Chairman.
    Mrs. Wagner. I greatly appreciate the courtesy of the 
ranking member. I have to get to a Financial Services markup. 
And so, I am on roller skates today.
    And thank you, Mr. Chairman, for organizing this hearing.
    And thank our witnesses.
    I had the great privilege of serving as a United States 
Ambassador in Western Europe, Ambassador Burns.
    And, Ms. Conley, I would like to associate myself with your 
opening statement greatly.
    Although we work closely with partners in the EU bloc, our 
goals are not always in step. We have historically relied on 
the United Kingdom to bridge gaps between the United States and 
EU countries.
    Ms. Conley, how will the UK's departure from the EU affect 
EU policies in areas of interest to the United States, such as 
sanctions and trade and regulatory policies?
    Ms. Conley. Thank you so much for that question.
    The European Union will be greatly reduced, should the 
United Kingdom depart the EU. On an almost daily, hourly basis, 
the story is in constant change. But, all things being equal, 
the United Kingdom provides for the European Union a very 
export-oriented, very market-economy-driven--it is driving the 
European Union on foreign and security policy. And this will be 
a great loss to the European Union when the United Kingdom 
leaves.
    If anything, we focus too much on the ins and outs of this 
extraordinary Brexit debate, but we have not focused enough in 
thinking about how much the EU will diminish, and in some ways 
how much the United Kingdom will diminish from being out of the 
European Union. This is why we are seeing in the EU the 
creation of what they are calling the Hanseatic League, which 
is Northern European economies that are trying to in some ways 
fill the space that the UK will leave in being market-driven, 
export-driven, much different from the Southern European 
economies.
    Mrs. Wagner. There will definitely be a void.
    Ms. Wormuth, many of our European partners share the United 
States concerns regarding Russia's non-compliance with the 
Intermediate Range Nuclear Forces Treaty, or INF. The United 
States has since withdrawn from the INF with NATO support. I 
understand these recent developments worry some European 
stakeholders who fear resurgent U.S.-Russian competition will 
destabilize Europe. What is the future of arms control in 
Europe, and what role can European countries play in pressuring 
Russia back into compliance?
    Ms. Wormuth. Thank you for the question, Congresswoman.
    I am very concerned about the future of the arms control 
regime in the wake of the decision to withdraw from INF, 
primarily because I am concerned about what it means for 
whether we extend the New START agreement in 2021, which I 
think is very much in the interest of the United States, 
despite the fact that we are in a very low period with the 
Russians. So, figuring out how to extend that agreement, which 
is in our interest, I think is item No. 1 on that agenda. I 
think we need to continue to have our European allies and 
partners put pressure on Russia to work with us to extend that 
agreement and to call out their bad behavior, as they have in 
many instances.
    I do think that part of having a credible deterrent is 
showing a unified front. I think the way the United States 
withdrew from INF did not shore up that unity inside of the 
alliance. So, going forward, we need to coordinate, so that we 
show a unified front.
    Mrs. Wagner. Thank you, Ms. Wormuth.
    Ambassador Burns, during the cold war our alliances with 
European countries helped the United States maintain a durable 
balance of power vis-a-vis the Soviet Union, preventing 
catastrophic conflict, frankly, between the great powers. 
Today, we are seeing China step into the balance or into the 
place, I should say, that the Soviet Union once occupied. What 
role will Europe play in countering the rise of China?
    Mr. Burns. I think, as Heather Conley said, the Europeans 
seem to be disorganized and not united on how to respond to 
China, a great deal of divisiveness as the Chinese seek 
inroads. The Chinese are running and own the Port of Piraeus--
--
    Mrs. Wagner. Yes.
    Mr. Burns [continuing]. The biggest port in the Eastern 
Med; significant investments in the Balkans, now in Italy. So, 
the European Union needs to organize itself. It needs to 
develop a common policy because this is a major threat. And 
they understand that the military advantage that the United 
States has had since the Second World War will be at risk if in 
AI, machine learning, quantum computing, biotechnology, our 
government does not have the ability to keep up with the 
Chinese in the technological arms race. Europe is going to be 
part of that. Their labs, their tech companies, their research 
universities have to be with us and united in that.
    So, I think that, on a NATO basis, China has become an 
issue. And in Ambassador Lute's report that I did with him, 
that is one of our recommendations: we have to think about 
China as a threat.
    I would close on this, Congresswoman. General Milley said 
this morning when he testified up here on the Hill that he felt 
that Russia was still the great existential threat. I think we 
are facing two big authoritarian threats----
    Mrs. Wagner. I agree.
    Mr. Burns [continuing]. In Europe.
    Mrs. Wagner. I agree.
    Mr. Chairman, my time has expired. Again, I thank the 
ranking member for his courtesy.
    Mr. Keating. Well, thank you, Representative. Thanks for 
bringing that point across because one of the highest-ranking 
members of the EU that we had private conversations with said, 
if we are on the course we are now, and we could look back 30 
years from the future, we would find out by far the greatest 
threat is China and their activities.
    I yield to Mr. Cicilline, who I understand might yield his 
position and time.
    Mr. Cicilline. My position, not my time.
    [Laughter.]
    Mr. Costa. I thank my friend and colleague from Rhode 
Island for yielding this time. I have another subcommittee that 
is going on.
    We have an all-star group of testifiers today, and I want 
to thank you all for your service to our country and your 
efforts there.
    Chairman Keating, I want to commend you for this effort. I 
do agree that we are in a transitional time in world history, 
and I think this subcommittee will and can, if we do, play an 
important role in combination with our allies in Europe in 
being, in essence, the glue that reaffirms, as we have stated 
earlier, the importance of this transatlantic relationship.
    Seventy years--70 years--of this history is the longest 
peacetime period in Europe in over 1,000 years. I am certain 
that the majority of Americans, certainly the majority of 
Europeans, do not think about that. Probably the majority of 
them do not even know that, that these institutions that we 
have helped create from NATO to the other efforts with the 
European Union and stabilization of that, the World Trade 
Organization--the list goes on--these are things we did not 
just for Europe; we did for ourselves. Countries do what is in 
their own interest. And this peace dividend that has resulted 
in this 70-year transatlantic partnership must be reaffirmed.
    So, let me ask you a few questions here, and I just want to 
go quickly through it because of time.
    Ambassador Burns, do you view the European Union as our 
adversary?
    Mr. Burns. No, they are our partner strategically.
    Mr. Costa. Ms. Wormuth, do you view the European Union as 
our adversary?
    Ms. Wormuth. No. I would affiliate myself with Ambassador 
Burns' view.
    Mr. Costa. Yes. And, Ms. Conley?
    Ms. Conley. Absolutely not. The European Union is our great 
partner.
    Mr. Costa. And Hal Brands?
    Mr. Brands. The European Union has provided the political 
and economic cohesion to go along with NATO's military 
cohesion.
    Mr. Costa. Right. And I think that some of the comments 
made here earlier--certainly there are wealthy countries in 
Europe that should do more in terms of their commitment, 
Germany being one of them. And we need to continue to push 
them, as the previous administrations have done. But there are 
constructive ways that you can do that. And I know the chairman 
here and I, as chairman of the Transatlantic Legislators' 
Dialogue, are committed to doing just that.
    I am looking for the four of you to give us some thoughts 
and suggestions on how at this transitional time in history we 
can use these institutions, these committees, these efforts 
with the NATO PA and Transatlantic Policy Network, to be this 
glue that reaffirms that America still cares.
    Because the comments that Chairman Keating made when I was 
at Brussels last month with him and others--these are questions 
that our European friends are asking, where is America? And 
they are dealing with the same challenges that we are: 
populism, extremism, fear from immigration, racism, bigotry, 
antisemitism that not only is raising its head here, but in 
Europe as well.
    So, what suggestions would you have in terms of using our 
legislative tools with our partners in Europe over the next 2 
years? Ambassador Burns, do you want to begin, quickly?
    Mr. Burns. I would just say that Congress has a real 
opportunity here. If the administration is not willing to work 
with the Europeans on refugees or climate or Iran--and there is 
a question about whether or not the Trump administration 
actually sees the EU as a strategic partner--Congress can step 
forward, and these legislative exchanges are important.
    Mr. Costa. I think it has been very clear, the 
administration sees these relationships as transactional and 
does not really believe in multinational partnerships. Clearly, 
that is what they have exhibited. It is just a different view 
and it is jarring, I think, for this partnership.
    Thirty years ago, the Berlin Wall fell. These are really 
historical things, if you think about it, and it is due, in 
part, to the success of this partnership I believe.
    Other comments? Yes?
    Ms. Conley. I would just add, I think, obviously, visiting 
often, traveling, speaking out, making sure that they are 
hearing other voices of support. I would also encourage you to 
think about how your district and the States can work more 
collaboratively with Europe, the sister city partnerships, 
economic relationships. If this cannot be a top-down approach, 
we have to stabilize and maintain it. Really energize your 
constituents to reach out to economic ties that bind, and 
continue to send the strong messages.
    Mr. Costa. And working with AmCham; there is also the 
private and the public sector. There are NGO's. There is a lot 
of things that are tools, Mr. Chairman, that I think we need to 
employ with our European colleagues as well.
    My time has run out, but I do not know if any of you care 
to comment. In 2013, the equivalent of the Joint Chiefs of 
Staff of Russia, General Gerasimov, talked about a policy using 
democratic institutions, elections, to undermine the European 
Union and the U.S. as an economic force and as a military 
force, to play on those divisions. Think he has done a pretty 
good job so far with their limited hand?
    Mr. Keating. If I could, perhaps that could be answered in 
the course of the other questioning, too. If you could filter 
that in, it would be appreciated.
    Thank you, Representative.
    Mr. Costa. Thank you.
    Mr. Keating. I now call on Ranking Member Kinzinger.
    Mr. Kinzinger. Thank you, Mr. Chairman, and thanks for 
enforcing the 5 minutes, because I know a lot of us have stuff 
to do this afternoon.
    Let me just say again, all of you, I appreciate you being 
here. I think this is a fantastic hearing. I think there is a 
lot that unifies us.
    I have heard a few shots kind of coming from the other side 
about the administration. Let me be clear. I think the 
administration appreciates Europe and sees Europe as a friend. 
I think the administration appreciates NATO and sees NATO as a 
friend. But sometimes Europe and NATO do not like being called 
out when they are not doing what they need to do. And, I mean, 
it is a reality.
    Back post-World War II, Europe was in a position where they 
needed the United States, basically, to provide a whole lot, 
and there was a lot of benefit to us. Now we are in a position 
where we have a lot of very strong countries, and we all have 
to rely on each other for a security situation.
    I think it is important to note that we get as much out of 
NATO as NATO gets out of us. So, I think it is important. This 
is not just a United States doing a favor for Europe situation. 
But, that said, the fact that we all kind of have something to 
play, I do not think there is anything wrong with calling out 
Europe when they are falling short in those areas.
    I think looking at the issue with Russia, as the chairman 
mentioned and others mentioned, Russia is a huge problem. We 
see it in our own hemisphere as we get reports that Russia has 
landed troops in Venezuela, a socialist nation that is failing 
its people that are starving to death. And Russia, once again, 
appears to be using its military, as it did in Syria, to hold a 
terrible person in power because it benefits them in power.
    So, that is why pushing back against Russia through NATO in 
Europe, taking away energy as a weapon for them, pushing back 
against them in our own hemisphere, which we have neglected for 
too long, is very important. And we need our friends in NATO to 
step up with us. We need them to spend a little money with us, 
too.
    Ms. Conley, I want to touch on Germany with you and I want 
to ask you a question. Germany's willingness to continue the 
construction of the Nord Stream 2 pipeline and to connect 5G 
with the Chinese telecom firm Huawei is only a few of the 
questionable choices that they are making. What does it say 
about the strength of the U.S.-European alliance when Germany, 
the largest economy in Europe, is taking actions that are 
counterproductive to our joint security interests?
    Ms. Conley. Thank you, Congressman.
    That is exactly what we do; we work on tough problems. The 
challenge is Nord Stream 2 follows Nord Stream 1, and we should 
have been much stronger on Nord Stream 1. I think there is an 
awareness in the German government that they cannot proceed as 
to how they wanted to. Chancellor Merkel has said that she 
wants to ensure that Ukraine does have transit, gas transit, 
before the end of this.
    But you are absolutely right, this is where we have to roll 
up our sleeves and work very closely with them, not scream at 
them through Ambassadors, but work constructively with them. 
They respond to a parliament. They are just like our system. 
They can demand change. We let this go on for too long.
    I would argue we have been sort of in a benign neglect 
phase for over a decade. We are very transactional. We ask one 
thing, and then, we will come back and ask for another. We do 
not engage in a sustained way.
    If we are concerned about Nord Stream 2, we had better be 
as concerned about TurkStream because TurkStream is a 
reconstituted South Stream. So, we have to look at this very 
holistically.
    The 5G issue, you are absolutely right, Europe is falling 
very far behind in IT infrastructure. They know that. And what 
they are trying to do is make sure the U.S. companies are 
affected to try to level the playing field. We have to join 
with them, and if we do not join with them, they will be very 
susceptible to our adversaries----
    Mr. Kinzinger. Yes, I agree. And, look, this has been an 
issue that has come under Republican and Democratic 
administrations prior. We have let this kind of relationship 
sleep. We have basically said, OK, the fact that NATO exists is 
enough, and we have not taken into account these creeping 
problems that we are now having to deal with head-on. But I 
think we need to be careful not to assume that, when we take on 
these problems head-on that atrophied for so long under us, 
that is not disappreciating NATO or hating Europe that we are 
finding them as competitors. This is us saying, look, the 
future of the United States and the future of Europe is relying 
on this.
    Let me just ask you in only the 30 seconds left--Germany 
continues to be the member that does the most to stifle NATO 
growth. Year-in and year-out, they are near the bottom of 
defense spending. Why does Germany continue to be such a 
problem when it comes to defense spending and in reaching the 2 
percent GDP target?
    And I gave you 18 seconds. You can topline it and figure 
the rest later.
    Ms. Conley. So, I am deeply concerned not only in the State 
of the Bundeswehr and the lack of functional capabilities in 
the maritime as well as their air and land power, but please 
understand we are talking about different scales of economies. 
So, when you talk about the German economy, it is not the 
Estonian economy. So, when we put this marker at 2 percent, we 
put ourselves into this corner where we benchmark at 2 percent. 
You can spend 2 percent to defend against another NATO ally, 
which is the Greek posture, or we can have allies that have 
capabilities that the U.S. can use.
    Mr. Kinzinger. It would be good if Germany had one of 
those.
    Ms. Conley. Well, Germany absolutely has to increase their 
defense spending, and we have to work very closely with them on 
Bundeswehr reform. But the Germans are also the lead framework 
nation in Lithuania and the NATO battalion. They are 
contributing, but we have to work much harder and hold them to 
account, I agree with you.
    Mr. Kinzinger. I think we all agree.
    With that, I am going to yield back just because of time. 
Thank you very much.
    Mr. Keating. OK. Thank you.
    Now I would like to recognize the very patient 
Representative from Rhode Island, Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman.
    And thank you again to our witnesses for your really 
helpful testimony.
    Ambassador Burns, I want to start with you. As I mentioned 
in my opening statement, you referred to the challenges faced 
by NATO at 70, particularly as it relates to the failure or 
absence of leadership from the U.S. President, and how unusual 
a circumstance that is. Although we are trying to do as much as 
we can as Members of Congress to reaffirm our support and our 
understanding of the importance of this relationship--we did a 
resolution which was overwhelmingly supported in a bipartisan 
way; we are having this hearing--my sense is still that world 
leaders look to the words and actions of the President and not 
the Congress. And so, I am wondering if you could speak a 
little bit about what the absence of American Presidential 
leadership in this moment has meant in terms of the future of 
NATO and what we can do to undo some of the damage that is 
being done by the President in this regard.
    Mr. Burns. Thank you, Congressman.
    One of the most striking things that Ambassador Lute and I 
heard--we took 6 months, interviewed 60 leaders, current and 
former on both sides of the Atlantic--one of the most striking 
things was that a lot of Europeans said there could not be next 
week a head-of-government summit here in Washington to 
celebrate the 70th anniversary because the European leaders and 
some of the Americans were not quite sure if President Trump 
would blow up the summit with rhetorical attack on NATO, the 
way he did the last two NATO summits in 2018 and 2017. That is 
a sad reflection.
    I think what we have lost is we have never had a President 
who is so ambivalent, and this is a kind characterization, 
about NATO. Article 5 is the key. A lot of people have been 
saying, watch what the administration does, not what it says. 
But, for deterrence to work, your words have to be clear and 
they have to be credible, and they have to be firm. If you 
backslide on Article 5, that does give an opening to an 
adversary like Vladimir Putin. It may not be a conventional 
attack of the type that we might have feared, and we did fear, 
in the 1950's and 1960's, but now a hybrid attack or a 
cyberattack on our election system. And so, I think we have 
lost a lot. And we need the next President, whenever that 
President appears after a vote of the American people, to 
really dig us out of a hole.
    Congress does have an opening right now. Ironic for someone 
who is a creature of the executive branch--I served my entire 
career in the executive branch--to ask Congress to exercise its 
constitutional responsibilities. But I can tell you, what I 
have heard from Europeans is the resolutions you passed 
reaffirming American support for NATO did make a difference for 
them. And I think we saw that in Munich as well.
    Mr. Cicilline. Thank you, Ambassador.
    I think one of the other things that we have heard a lot 
about is, obviously, the shared democratic values that both led 
to the creation of NATO and it has sustained it for these 70 
years. But I think many of us are very concerned about, and you 
have written about this, the democratic institutions that are 
weakening, particularly in Hungary and Poland. I think it is 
also quite a stretch to claim that Turkey embodies democratic 
values. Populist parties are growing all across Europe, and 
you, Ambassador Burns, highlighted this in your report, this 
democratic backsliding as a cancer within NATO.
    And so, I am curious to know what you think Congress can do 
to shore up the foundations of democracy at the core of the 
transatlantic alliance and what your assessment is of the State 
of democracy in Europe. And obviously, any of the other 
witnesses who want to contribute to that, answer.
    Mr. Burns. Two big challenges. The biggest challenge in 
Europe right now, the existential challenge is the rise of the 
anti-democratic populists, Marine Le Pen, Geert Wilders, 
Alternative for Deutschland. They are contesting the European 
parliamentary elections. They may, unfortunately, do well in 
them this spring.
    Very important for the United States to be on the right 
side of that issue. And there is a perception, more than a 
perception, a strong belief that the President has embraced 
Viktor Orban in Hungary and the Polish government, and Salvini, 
the right-leaning leader in the Italian coalition. We should be 
behind the Christian democrats and the social democratic 
leaders, the true small ``d'' democrats in Europe like Angela 
Merkel, and we are not right now. And that is hurting us.
    On the NATO side, I have to tell you, when Ambassador Lute 
and I suggested in our report that NATO look into the 
democratic practices of Hungary, Poland, and Italy, there was 
widespread opposition among most of the people in NATO. They 
say, ``It will divide us.'' But NATO is not just a military 
alliance; it is a political alliance. The second sentence of 
the Washington Treaty is about our values, rule of law, 
democracy, human rights. We have got to pay attention to that. 
There ought to be an annual assessment of whether countries are 
backsliding. There have to be some penalties, but right now 
there is no agreement in NATO that we should do that.
    Mr. Cicilline. Thank you. My time has expired.
    Thank you, Mr. Chairman. I yield back.
    Mr. Keating. Thank you, Representative.
    And the chair recognizes the gentleman from Indiana, Greg 
Pence.
    Mr. Pence. Thank you, Chairman Keating and Ranking Member 
Kinzinger. Thank you for holding this important meeting.
    I thank the panel for their service to this country, and 
thank you for being here today and providing a lot of 
information.
    In some of your written testimony, Ambassador Burns and Ms. 
Conley, you stated, NATO deters Russian President Putin from 
invading or seeking to destabilize our NATO allies in Eastern 
Europe. And two, the United States must return to Europe 
economically through enhanced trade and investment 
partnerships.
    I would like to discuss these items and switch gears a 
little bit from some of the things we have been talking about 
and talk about energy security. According to our congressional 
Research Service, the EU remains highly dependent on Russia for 
natural gas. More than 40 percent of total European gas imports 
are from Russia, and some EU members are almost totally 
dependent on Russian gas, as you know.
    At the same time, Russia has demonstrated its willingness 
to use its energy resources to further its foreign policy. For 
example, Russia cutoff gas supplies to Europe for periods in 
2006 and 2009, and has repeatedly manipulated flows through 
Ukraine.
    NATO is not blind to this challenge. According to NATO, and 
I quote, ``NATO's role in energy security was first defined in 
2008 at the Bucharest summit and has since been strengthened.''
    My question, is NATO, America's greatest security asset, 
doing enough to enhance energy security in the alliance, and 
what more should they be doing, if not? And I ask each of the 
panelists.
    Ms. Conley. Congressman, thank you so much for that 
question.
    I think NATO certainly is at the center of thinking about 
security very widely and has created a center of excellence to 
focus on energy security. But, ironically, it is the European 
Union that has the most input into demanding diversification of 
European energy. The European Union's Third Energy Package 
tries to break the upstream and the downstream requirements and 
tries to seek and ensure diversification. It has had successes; 
yet, it has had failures such as Nord Stream 2.
    We have to continue to work very closely with our allies to 
make sure that this cycle of dependency--and it is not just oil 
and gas; there is a malign economic influence that also comes 
as part of the dominance of, whether it is Gazprom or Rosneft, 
in NATO countries. We have to break that cycle of dependence. 
And this is exactly where NATO and EU cooperation is absolutely 
essential. NATO is the security provider, but the EU has the 
economic tools to try to help break this cycle of dependency.
    Mr. Brands. I would agree with that. I would just add, to 
the extent that the United States can promote or facilitate the 
export of LNG and other energy exports, that can provide a 
useful counterweight to Russian influence as well.
    The point I would make in terms of addressing this is that 
it is important for the United States to apply pressure and 
apply encouragement, but to do so in a constructive way. 
Because if it comes across as hostility or outright 
condemnation, that turns this issue or the defense spending 
issue into a referendum on the current political leadership of 
the United States, which is not an argument that we will win in 
Europe right now.
    Ms. Wormuth. And just to amplify that, I very much agree 
with what Ms. Conley said about Germany and its need to step 
forward in the area of defense. But, unfortunately, I think 
because so much of the German government feels like they have 
been singled out by the current administration, they are 
letting that color their decisions. And it almost feels as if 
part of deciding not to spend as much on defense is a 
reflection of feeling like they have been singled out unfairly.
    And so, I think we really need to get to a place where we 
are pushing the Europeans, as the ranking member said, but we 
are doing that against the backdrop of the complete 
understanding of the positive relationship that we have and how 
much our European allies bring to the table. I think without 
grounding those hard conversations in that backdrop, it is very 
easy to have those conversations be unconstructive.
    Mr. Burns. Congressman, NATO thought a lot about energy 
security at the beginning and the middle part of the cold war 
decades ago. We had to in terms of our contingency planning; 
less so now. NATO should think more about this, but I think, 
realistically, the EU is going to be the focal point of the 
institution that the U.S. can work with most effectively. U.S. 
LNG, Norwegian, Algerian gas are substitutes, and we have got 
to work with the EU to get there.
    Mr. Pence. Thank you, Mr. Chairman. I yield back.
    Mr. Keating. Thank you, Representative.
    The chair now recognizes the vice chair of the committee, 
Representative Abigail Spanberger.
    Ms. Spanberger. Thank you, Mr. Chairman. I am honored to 
serve as the vice chair of this subcommittee as we continue to 
reinforce our shared fundamental values of international 
cooperation, mutual security, and democracy.
    My question today for the witnesses--and I thank you very 
much for joining us--relates to trade policy. Recently, we have 
seen the White House invoke restrictive trade policies, 
particularly the imposition of tariffs in response to trade 
imbalances and in the name of national security. Yet, it is the 
farmers, business owners, and everyday people across my 
district, central Virginia's 7th district, and across the 
country who are hurt both by these tariffs and the retaliatory 
tariffs countries have imposed in response.
    Mr. Brands, in your view, and, Ambassador Burns--and to the 
other witnesses if you would care to respond as well--in your 
view, are these tariffs serving our national security interests 
or are there other, more effective diplomatic avenues for 
resolving trade disagreements that would not have this outsized 
negative impact on our own citizens that we should consider 
pursuing instead?
    Mr. Brands. I do not believe that the tariffs are serving 
the national interests. And I would simply add that I think 
they are undercutting U.S. goals in other respects as well.
    One thing I would give the administration credit for is 
trying to bring pressure on China to address its unfair trade 
practices, but that will be much more effective if we are not 
isolating ourselves by picking trade fights with our allies at 
the same time.
    Ms. Spanberger. Thank you.
    Mr. Burns. Congresswoman, I would just say it is 
complicated. We have always competed with the EU in trade. We 
are going to have our differences, but we need to fight fairly.
    The smarter play for us right now is to combine forces with 
the EU and Japan and South Korea against China. The President 
is fighting. I think he has made a lot of good points about 
China's predatory practices. We need that EU support, and right 
now we have got a divided team on our side.
    I would also say, in the mid to long term, we should go 
back to thinking about a U.S.-EU free trade agreement. Nine 
hundred million people, the two largest democratic spaces in 
the world, and the two largest economies in the world, and this 
could help our economy and it could help us to confront the 
predatory nature of the threat from the Chinese.
    Ms. Spanberger. And given the tenor that so many of these 
conversations have had related to our trade policy and related 
to our engagement with our allies, what do you see the path 
forward to dial back some of this aggression, to put us back on 
the right path, and potentially move toward, as you said, sir, 
combining forces, particularly in the face of the greater 
challenge, which is China?
    Mr. Burns. You know what we do not have right now is a 
productive relationship between the American President and the 
German Chancellor. President Obama and President Bush, George 
W. Bush, both had very productive, frank relationships with 
Angela Merkel. You could work things out with her because she 
is the strongest leader; to a lesser extent with President 
Macron of France. We do not have those relationships. The 
President and the Chancellor, I am told, do not talk often. If 
you do not have a conversation between the two most important 
alliance leaders on trade, then you get into situations, very 
unfortunate, where we are threatening a trade war.
    And I think a lot of people fear, when the U.S.-China trade 
war ends, that the President is going to go after the EU for 
our next trade war, and that is going to hurt everything that I 
think the four of us have talked about this morning. It is 
going to have an impact on the military and political issues as 
well.
    Ms. Spanberger. Thank you.
    Ms. Conley. I would just add, Congresswoman, that we do, 
like in the other areas, we do have very big differences with 
the European Union on a whole range of trade issues from data 
privacy and protection and agriculture. We cannot shy away from 
those. We have to dig into those.
    But placing tariffs on steel, aluminum, threatening tariffs 
on auto parts, we are self-harming ourselves. And exactly what 
we should have done is create a Japan-EU-U.S. full-spectrum 
approach to China on State-owned enterprises, the whole sweep 
on the AI issues. We could have had a dramatic impact on 
China's behavior. We just are choosing to fight our allies and 
our adversaries at the same time. We need to husband our allies 
and go after the same thing.
    Ms. Spanberger. Thank you very much for your time today. 
And I really appreciated your comment about fighting our allies 
and our adversaries at the same time. I think that is 
counterproductive. And I thank you for your comments this 
afternoon.
    I yield back.
    Mr. Keating. Thank you, Representative, and thank you for 
that line of questioning because, as a person in the last 
Congress that cofounded the then-called TTIP Caucus, there is 
no question--and I reached a great reception, as a matter of 
fact, when we brought this up when we were in Europe just 
recently--that if we work together, even if we are not 
successful in standardizing even the majority of products we 
have, we will have one-half of the world's GDP. If we really 
want to be effective with China, we should deal from strength. 
So, I appreciate that line of questioning. It was well received 
by the leaders there. I am not unmindful of obstacles we would 
have, but at least we will be going down the right road. So, 
thank you.
    And now, the gentleman from Mississippi, thank you for 
joining us. Representative Michael Guest, welcome to the 
committee, and thank you for being here.
    Mr. Guest. Thank you, Mr. Chairman.
    I want to turn my focus just for a few minutes on NATO 
spending. And I think there was, during some opening statements 
made by you, Ms. Wormuth, that, currently, of the 29 NATO 
countries, eight have met the 2 percent GDP, which is the NATO 
spending standards that have been set, is that correct?
    Ms. Wormuth. Congressman, it is actually five currently now 
who are meeting the 2 percent target.
    Mr. Guest. Only five?
    Ms. Wormuth. That is correct.
    Mr. Guest. And you said that we are on track by 2024 to 
have additional countries that would meet that 2 percent GDP. 
What number?
    Ms. Wormuth. I think we are expecting it to be somewhere 
between 14 and 15. I mean, these are projections, but it will 
be a majority of the 29 members.
    Mr. Guest. So, we will still have, roughly, 14 or 15 then 
that do not meet that standard?
    Ms. Wormuth. That is possible.
    Mr. Guest. And some information that I saw--and tell me if 
any of you believe this is accurate or not--but some research 
said that, in 2017, the U.S. paid for over 70 percent of the 
combined defense expenditures of NATO. Does that number sound 
accurate to you?
    Ms. Wormuth. Well, I think it is easy to mix up the math 
because there's NATO common funding. There is sort of NATO 
budgets, and then, there are the individual national defense 
budgets. So, I am not sure which statistic that speaks to.
    Mr. Guest. All right. Let me ask, I guess my question is, 
since we currently have only five of 29 countries that meet 
that, even in 2024, we expect only to have, roughly, half--you 
believe 14 to 15--what can we do, as a Congress? I guess two 
things. What can we do, and then, what should we do to make 
sure that other NATO members are meeting their obligation?
    Ambassador, I will start with you, and I will work down the 
table from left to right.
    Mr. Burns. You know, the real problem is in the parliaments 
of these countries, particularly in Germany where the Bundestag 
does not want to spend the money. And they have, as you know, a 
surplus in their budget. So, speaking to them legislature to 
legislature I think is something that our members, Republican 
and Democrat, should do.
    Second, there is actually no common standard to how to 
measure 2 percent across the alliance. Individual allies 
measure it differently. We need a clean, regular metric that 
everyone can agree on. And I would say expand the 2 percent 
category to include spending on cyber defense and spending on 
intelligence, because some of the members, that is their 
comparative advantage. That is where they could help us. And 
right now, we are not counting what they are spending under 2 
percent. This is a major problem, but it really has to focus on 
Germany as well.
    Mr. Guest. So, is what you are saying that we need to 
expand the categories that we consider counting toward that 2 
percent? So, we would not be putting money necessarily 2 
percent GDP into soldiers and battlefield equipment, but that 
money could be counted in additional spending? Is that your 
suggestion?
    Mr. Burns. That is a suggestion that Ambassador Lute and I 
made in our recent report, and it is striking to know that 
there is not a common assessment of how this is all measured. 
Some countries include pensions for military veterans and some 
countries do not, for instance. But cyber and intelligence, 
that is very important to counter the Russian threat, which is 
the most pernicious threat to NATO now.
    Mr. Guest. Ms. Wormuth, do you have any suggestion what we 
can do to get the majority, and ultimately all, of the 
countries to that 2 percent GDP amount?
    Ms. Wormuth. I do, Congressman. I think, first, we have to 
continue to speak constructively and do the hard work and have 
the hard conversations with our NATO allies about the 
importance of meeting that target. The projection today is 
that, by 2024, a majority of the 29 will get there, but we 
still have time and we can work with those countries to get 
more of them closer to the target. And again, that, I think, 
means having those difficult conversations against a backdrop 
of recognizing that we are all in this together.
    Another point I would make is that 2 percent is about the 
input. What is as important, if not more important, is the 
output. What are we buying with that? I do not want to see our 
NATO allies spend more money on their pensions and on some of 
their personnel accounts. I want to see them buying new 
equipment. I want to see them investing in research and 
development. And I would say the NATO countries are doing 
better. Part of the Wales Defense Investment Pledge was to have 
20 percent of their defense budgets go to new equipment and 
R&D, and several members are reaching that target.
    So, I think we need to be focusing on have those hard 
conversations and have conversations about what they are buying 
and making sure what they are buying is useful for the alliance 
and for deterring Russia and dealing with the range of other 
challenges NATO faces.
    Mr. Guest. Dr. Brands, do you have any suggestions?
    Mr. Brands. I would endorse all this. I would also say, 
``single out the high-performers for praise and recognition.''
    Mr. Guest. And then, finally--I know I am about over time--
but, Ms. Conley, I will give you a chance to answer the 
question.
    Ms. Conley. Yes, thank you.
    And I think just to pull on Dr. Brands, I mean, we need to 
do more with those allies that are contributing more. More for 
more, is how I would put it.
    Also, appreciate that our allies provide host nation 
support in the basing, and that is a contribution. Many times 
when the U.S. invests in European security, there is a rebate. 
NATO, through its common funds, reimburses the alliance. So, it 
is not as clear and simple.
    But you are absolutely right, every leader at the Wales 
summit made a commitment to 2 percent to 2024. Now, like this 
Congress, they could not make a commitment of funding to 2024. 
They are democratically elected. But the trajectory has to be 
there. The capabilities have to be there. The message has been 
received, but, boy, we have to keep their feet to the fire and 
accept no excuses.
    Mr. Guest. Thank you.
    Mr. Chairman, I apologize for going over and I yield back.
    Mr. Keating. As we conclude, I just want to institute 
quickly a second round, but make it more of a lightning round. 
I do not know if you have planes to catch or what your 
transportation issues might be, but a couple of issues just for 
brief comment. And I will also give my colleagues any chance to 
put those questions in the queue as well.
    But we have not touched on Turkey and S-400, especially 
from its NATO implications. This is very serious. I did not 
want this hearing to go by without bringing up that issue 
because I do think it presents a very grave threat to our 
alliance if this continues. So, if you could comment on Turkey 
and the possible S-400 purchases from Russia?
    Ms. Wormuth. Chairman, I am very concerned about the 
Turkish decision to acquire the S-400, and so concerned that I 
think, frankly, we are in a position where we need to 
reconsider going forward with the F-35s to Turkey. We cannot 
have our planes essentially plugging into an adversary air 
defense system. We have been having this conversation with 
Turkey for some years now, but it feels like we are at the 
tipping point. But I certainly would not be comfortable going 
forward with the F-35s.
    Mr. Burns. I agree with Secretary Wormuth. The statements, 
recent statements, by Chairman Dunford and Supreme Allied 
Commander Scaparrotti I think have been straight on target. And 
that is, we cannot integrate this system into our alliance. And 
so, I agree with Secretary Wormuth. If the Turks proceed with 
this--and Erdogan is threatening to do that--then I think the 
F-35 should be at risk. How can we have close strategic 
coordination if they are importing a Russian system in the NATO 
ally defenses?
    Ms. Conley. Chairman, I would just argue that the S-400 
picture is a symptom of a much broader and larger strategic 
picture that Turkey is turning away from Euro-Atlanticism--its 
approach to Venezuela, its approach to Iran, its rapprochement 
with Russia, some of the instability in the Aegean Sea. This 
deserves a hearing from this subcommittee to look at the 
totality.
    And much of NATO's containment strategic rationale was 
anchoring Turkey and Greece, Euro and the Euro-Atlantic 
community. This anchor is starting to push in a different 
direction.
    I would also argue, for the Congressman's comment, Hungary, 
you need a hearing dedicated to Hungary and understanding what 
is going on and whether we can maintain NATO classified 
information with that country. Family first. These are 
important countries. We are losing them. We have to find a 
strategy and a way forward to return them to the Euro-Atlantic 
community.
    Mr. Keating. Great. Well, I would like to thank the 
witnesses and say this has been a day of interruptions with the 
roll calls, but this has been so important.
    We had very good participation from the subcommittee 
members running in and out. A couple of them had to leave. And 
the members of the committee, those members or other members, 
will have the opportunity to ask additional questions in 
writing. And we ask the witnesses to please respond to those 
questions. And the hearing record will be open for 10 business 
days in order to receive those responses.
    Mr. Keating. Thank you so much for being here. This is just 
the beginning of an important journey. I think in the short 
time we had to discuss this we covered so much ground, but are 
left with so many more issues to pursue.
    With that, I will adjourn this hearing and thank you for 
your participation.
    [Whereupon, at 4:10 p.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
